U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

 Satellite Memorandums of Agreement Should
          Be Improved By Using New Guidance


      Final Audit Report No. BSD-16927-0001/March 2005




                            PUBLIC
                            RELEASE



                                     Office of Audits
                       Business and Science Division
U.S. Department of Commerce                                                      Draft Report No. BSD-16927--XXXX
Office of Inspector General                                                                           January 2004

                                                      Office of Audits, Business & Science Division

                                                    CONTENTS


EXECUTIVE SUMMARY............................................................................................... i


INTRODUCTION ........................................................................................................... 1


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................ 5


FINDINGS AND RECOMMENDATIONS.................................................................. 6


I. 	 New processes and procedures exist for appropriately preparing, reviewing, and 

     clearing interagency agreements............................................................................. 6


II. 	 NESDIS did not completely follow existing guidance when

      creating the 1998 satellite agreements.................................................................... 8


      A. 	 Failure to follow guidance from the Department’s Office of General Counsel 

           resulted in the citation of conflicting legal authority ....................................... 8


      B.	 Failure to follow Economy Act regulations allowed NESDIS to enter

          into the agreements without the required justification for using 

          NASA as the procurement source.................................................................... 9


      C.	 Failure to follow past Departmental and NOAA guidance created agreements 

          that lack important budget and management information............................. 10


III. The two satellite agreements should be improved by 

     applying the new guidance...................................................................................... 11


IV. Recommendations .................................................................................................. 14


V. 	 NOAA Response and OIG Response ................................................................... 14


ATTACHMENT

            ATTACHMENT I:                          NOAA’s Comments on Draft Report
U.S. Department of Commerce                                 Final Report No. BSD-16927-0001
Office of Inspector General                                                          March 2005

                                 EXECUTIVE SUMMARY


In September 2000, the Office of Inspector General (OIG) issued a report summarizing a series
of reviews on the Department’s implementation and oversight of interagency agreements, such
as memorandums of agreement (MOAs). Among other things, our prior reviews found that
many agreements were improperly or haphazardly completed making them difficult to
implement. This report discusses our review of two MOAs used by the National Oceanic and
Atmospheric Administration’s (NOAA) National Environmental Satellite, Data, and Information
Service (NESDIS) to acquire environmental satellites through the National Aeronautics and
Space Administration (NASA). Our current review found that on a positive note, NESDIS has
established new processes and procedures for appropriately preparing, reviewing, and clearing
interagency agreements. At the same time, we found that –

•	 NESDIS did not completely follow existing guidance when creating the two satellite MOAs;
   and

•	 NESDIS should improve the two satellite MOAs by applying the new guidance.

New processes and procedures exist for appropriately preparing, reviewing, and
clearing interagency agreements. To address concerns raised by our prior reports, the
Department issued the Interim Interagency and Other Special Agreements Handbook (April
2004) to provide guidance for the use, management, and oversight of interagency agreements.
The handbook assigns responsibility and establishes general policies and procedures for the
preparation, review, clearance, approval, monitoring, and closing of interagency agreements.
Although the handbook is not yet in final form, the guidelines have been endorsed by senior
Department officials and represent best practices for managing the interagency agreement
process. NESDIS also issued its own manual for interagency agreements, Review and
Clearance Procedures for Agreements, on October 31, 2002. A senior NESDIS official told
us that the manual had been reviewed and granted interim clearance by the Department’s Office
of General Counsel (OGC).

To further simplify guidance, staff from the Department’s Office of Acquisition Management
informed us that they are now working with all departmental agencies to create a single
handbook that the agencies will be required to use to write agreements. Such a document
would help clarify and enhance the guidance we reviewed in the two manuals. For example, the
new handbook would clarify at what level the agreements should be reviewed by various
components, e.g., budget and finance, legal, and acquisition. Pending the consolidated
guidance, we found that the NESDIS’ manual, coupled with the requirements of the
departmental handbook and the specific authorizing legislation, provides sufficient guidance for
the preparation, review, and clearance of interagency agreements.




                                               i
U.S. Department of Commerce                                   Final Report No. BSD-16927-0001
Office of Inspector General                                                            March 2005

NESDIS did not completely follow existing guidance when creating the 1998 satellite
MOAs. The 1998 Geostationary Operational Environmental Satellite (GOES) and Polar
Operational Environmental Satellite (POES) MOAs were written before the issuance of current
departmental and NESDIS guidance, but clearly at a time when there was legal, regulatory, and
even some departmental and NOAA guidance to guide the creation and review of these
agreements. We found that while the Department’s OGC had reviewed the agreements,
NESDIS did not completely follow the OGC guidance, federal regulations, and other
departmental and NOAA guidance. As a result, the agreements
(1) cite conflicting authorities, (2) were entered into without the required justification for using
NASA as the procurement source, and (3) did not include required budget and management
information.

    •	 Failure to follow guidance from the Department’s OGC resulted in the citation
       of conflicting legal authorities. The agreements were originally written as joint
       projects, citing the Department’s joint project authority. Joint project authority
       authorizes two agencies to work together collaboratively toward a project that is of
       mutual interest, in which the cost of the project is apportioned in an equitable manner.
       However, the Department’s OGC approved the agreements based on the condition that
       they be issued under the authority and provisions of the Economy Act of 1932, as
       amended. When certain conditions are met (discussed below), the Economy Act
       permits federal government agencies to purchase goods or services from other federal
       government agencies or other major organizational units within the same agency.

        The final signed versions of each agreement we reviewed showed that NESDIS
        managers did not remove the joint project authority citation. Instead, NESDIS added a
        statement that funds will be transferred under the Economy Act. The first step in writing
        a clear and executable agreement is selecting the appropriate authority. NESDIS needs
        to correct the agreements by citing the appropriate authority.

    •	 NESDIS entered into agreements without the required justification for using
       NASA as the procurement source. The Economy Act includes provisions to ensure
       that agencies do not use the Economy Act to circumvent the procedures, time, and cost
       of open competition. According to federal acquisition regulations, agencies that want to
       use the Economy Act must first show, among other things, that supplies and services
       cannot be obtained as conveniently or economically by contracting directly with a
       private source. However, NESDIS had not analyzed whether using NASA’s
       acquisition services for the satellites was more convenient or economical than
       contracting directly with some other entity. We also could not determine whether an
       appropriate acquisition official justified or reviewed the agreements, as required by
       federal acquisition regulations. Conducting the analysis and having the appropriate
       acquisition review would help to ensure that NESDIS is acquiring the satellites in the
       most convenient and economical fashion as required by acquisition regulations.



                                                 ii
U.S. Department of Commerce                                    Final Report No. BSD-16927-0001
Office of Inspector General                                                             March 2005



    •	 NESDIS managers also did not completely comply with existing MOA
       guidance when issuing the 1998 agreements. An Economy Act agreement is
       similar to a contract in that it involves the purchase of goods and/or services by one
       federal agency from another. As such, these agreements should clearly specify the
       terms and conditions of the purchase. We found that the POES and GOES agreements
       did not include budget or management information as required by then existing
       departmental and NOAA guidance.

The two satellite MOAs should be improved by applying the new guidance. We
evaluated the 1998 POES and GOES agreements against the new guidance to identify areas
where the agreements could be strengthened. We found a number of areas where both the
Department and NESDIS guidance required information that was not included in the
agreements. For example, the agreements do not contain specific products, schedules, delivery
requirements, and the amount of payment, or detail specific offices that are responsible for
NOAA activities. In addition, given the significant cost of the satellites, the numerous parties
involved in the acquisition, and the potential for loss or damage to the satellites, we believe that,
at a minimum, the POES and GOES program managers should address how potential loss or
damage will be handled at each stage of the acquisition process. The new guidance, if followed,
should result in MOAs with clear responsibilities and terms and conditions.

We are recommending that the Deputy Under Secretary of Commerce for Oceans and
Atmosphere ensure that the Assistant Administrator for Satellite and Information Services take
the following actions:

    (1) cite the proper legal authority in the POES and GOES MOAs, as well as future 

        agreements; 

    (2) comply with the requirements of the Economy Act, including federal acquisition
        regulations that apply to Economy Act transactions; and updated the POES and GOES
        agreements to follow the new guidance provided in the Department’s Interim
        Interagency and Other Special Agreements Handbook (April 2004) and NESDIS’
        Review and Clearance Procedures for Agreements (October 31, 2002), and ensure
        that future agreements comply with both handbooks.




We provided NOAA a draft of our audit report for its review and comment. NOAA’s
response is provided in Attachment I.

In response to our draft report, the Chief Administrative Officer of NOAA agreed with our
recommendations. In addition, he noted that NOAA will ensure that current agreements are



                                                 iii
U.S. Department of Commerce                               Final Report No. BSD-16927-0001
Office of Inspector General                                                        March 2005

amended to comply with past and present regulations and that future agreements comply with
current applicable laws, regulations, and policies.

We appreciate NOAA’s prompt response to our draft report and its continued efforts to
improve its management and oversight of satellite memorandums of agreement.




                                             iv
U.S. Department of Commerce                                   Final Report No. BSD-16927-0001
Office of Inspector General                                                            March 2005

                                      INTRODUCTION

Interagency and other agreements, such as memorandums of agreement (MOAs) or
memorandums of understanding, are mechanisms federal agencies use to define terms for
performing work for others, acquiring work from others, or coordinating complementary
programs. These agreements can be between Commerce entities; or between one Commerce
unit and another federal agency, a state or local government agency, a university or other
educational institution, a not-for-profit organization, or a private party.

In September 2000, the OIG issued a final report summarizing a series of reviews on the
Department’s implementation and oversight of interagency agreements. Among other things, our
reviews found that many agreements were improperly or haphazardly completed making them
difficult to implement. We are currently assessing whether problems with interagency
agreements have been corrected. This report discusses our review of the MOAs used by
NOAA to acquire environmental satellites through NASA.

THE POES AND GOES PROGRAMS




Left to right: Polar Operational Environmental Satellite (POES) and Geostationary Operational
Environmental Satellite (GOES). Source: NASA web site at http://goespoes.gsfc.nasa.gov.

NOAA’s NESDIS is dedicated to providing timely access to global environmental data from
satellites and other program sources to promote, protect, and enhance the Nation’s economy,
security, environment, and quality of life. Its responsibilities include developing and operating
the Polar Operational Environmental Satellite (POES) and the Geostationary Operational
Environmental Satellite (GOES).

The POES program consists of satellites that provide daily global coverage by circling the earth
in a polar orbit, with morning and afternoon orbits that provide information used for global,


                                                1

U.S. Department of Commerce                                    Final Report No. BSD-16927-0001
Office of Inspector General                                                             March 2005

long-term forecasting and environmental monitoring. The GOES program consists of two
satellites in a stationary orbit over the United States that provide information for national and
regional short-range warnings and forecasts.

The first polar orbiting satellite program was originally started by the Department of Defense in
1959. The program was transferred to NASA in 1960 and then to NOAA in 1962. The first
satellite was launched in 1960 and since that time, 37 of 41 satellites were launched into a
successful orbit. Currently, NESDIS is using NASA to acquire its last series of satellites,
POES K-N Prime. According to the POES Acquisition Manager, the POES K, L, M
development contract was signed on July 26, 1988. A modification to the existing contract for
N and N Prime was signed on December 16, 1994. Table 1 depicts the status of the POES
K- N Prime satellites.

Table 1: Status of POES K-N Prime Satellites

SATELLITE              SPACECRAFT           LAUNCH DATE                     STATUS
NOAA-K                 NOAA-15              May 13, 1998                    Back-up
NOAA-L                 NOAA-16              Sept. 21, 2000                  Active
NOAA-M                 NOAA-17              June 24, 2002                   Active
NOAA-N                                      Mar. 2005-planned
NOAA-N Prime                                Dec. 2007- planned

The first GOES was launched on May 17, 1974, and since that time, 14 of 15 GOES satellites
have been launched successfully. Currently, NESDIS is using NASA to acquire GOES N, O,
and P and is using NASA to support the initial development of the next series of satellites
identified as GOES R. The GOES program manager stated that for GOES R and GOES
follow-on satellites, his team plans to evaluate all options for acquiring the satellites, including
contracting directly for the acquisition. Table 2 depicts the current status of the GOES N, O,
and P, and R series satellites.

Table 2: Status of GOES N-P and R Satellites

 SATELLITE                       PLANNED LAUNCH DATE
 Current Development
 GOES-N                          May 2005
 GOES-O                          Apr. 2007
 GOES-P                          Oct. 2008
 New Series
 GOES-R                          Sept. 2012




                                                  2

U.S. Department of Commerce                                   Final Report No. BSD-16927-0001
Office of Inspector General                                                            March 2005

THE NOAA AND NASA WORKING RELATIONSHIP

NOAA’s NESDIS and NASA have been working together for decades to build both polar and
geostationary satellites. The NESDIS and NASA working arrangement, i.e., the terms for
developing, acquiring, launching, and operating the POES and GOES, has been delineated in
MOAs. The latest POES and GOES agreements were signed in March 1998 and the basic
agreement was signed in June 1998. The Basic Agreement serves as an umbrella agreement for
establishing the NOAA and NASA desire to work together collaboratively. Two separate but
virtually identical agreements discuss the specific POES and GOES projects.


Under provisions of the 1998 POES and GOES agreements, NOAA is responsible for defining
the requirements and operating the satellites after they have been successfully launched. NASA
uses its technical expertise to manage the development effort and launch the satellites. NOAA
receives the appropriation for acquiring the satellites and in turn, provides funding to NASA.
Both agencies play a role in overseeing aspects of the development; however, NASA is the
single official interface with the spacecraft, instrument, and launch service contractors. From
fiscal year 1998 (when the latest agreements were signed) through fiscal year 2004, NESDIS
estimates that it has transferred approximately $2.2 billion to NASA to acquire POES and
GOES satellites.

The NOAA and NASA working relationship started by congressional direction. The
Supplemental Appropriation Act, 1962 (P.L. 87-332), stated that the Department’s Weather
Bureau, now NOAA’s National Weather Service, should make the appropriation available to
NASA, “for expenses necessary to establish and operate a system for the continuous
observation of worldwide meteorological conditions from space satellites and for the reporting
and processing of the data obtained for use in weather forecasting….”

Based in part on the 1962 supplemental appropriation language, the Department and NASA
delineated the responsibilities for each agency in a 1964 Basic Agreement. The agreement was
worded similarly to a joint project, with the Department funding the establishment and operation
of what would eventually be titled the National Operational Meteorological Satellite System
(NOMSS), and NASA providing acquisition services and research and development funding
for new technologies that could be used to enhance environmental satellites.

A 1973 Basic Agreement superceded the initial 1964 Basic Agreement. The 1973 Agreement
contained many of the provisions of the 1964 agreement. However, the 1973 agreement
included an additional section entitled “Memoranda of Understanding (MOU)” that called for a
separate MOU for each major project, such as the GOES and POES projects. At a minimum,
these MOUs were required to include, “commitment of NASA and NOAA staff to be assigned
directly to the project for planning, technical, and administrative monitoring, including resident
representation at contractor facilities; definition of authority; reporting requirements; schedule;
and commitment of resources (funds, facilities, etc.).” Despite this requirement, separate


                                                 3

U.S. Department of Commerce                               Final Report No. BSD-16927-0001
Office of Inspector General                                                        March 2005

POES and GOES MOUs between NOAA and NASA were never established under the 1973
Agreement.

The current 1998 Basic Agreement superceded the 1973 Basic Agreement. According to the
NESDIS POES Acquisition Manager, elimination of NASA Research and Development
funding in the 1980s was the driving force for the latest update to the Agreement, which was
completed in 1998. The new Basic Agreement is similar to the previous agreement, which
stressed the need for NOAA and NASA to work together collaboratively, but removed the
NASA requirement to fund research and development efforts.




                                              4

U.S. Department of Commerce                                Final Report No. BSD-16927-0001
Office of Inspector General                                                         March 2005

                    OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of our audit were to (1) assess whether the POES MOA was consistent with
interim departmental guidance on interagency agreement and whether the departmental guidance
and/or the MOA can be improved, (2) determine the process of accomplishing work under the
MOA, (e.g. identify the offices and individuals at NOAA who are responsible for each of the
NOAA activities and how these activities are accomplished), and (3) ascertain if NOAA is
evaluating the POES and GOES MOAs with NASA to determine if the MOA is an appropriate
vehicle for accomplishing NOAA’s environmental satellite mission. Since the POES and GOES
MOAs are identical, our general approach involved using the POES MOA process to assess
the adequacy of both of these MOAs, as well as the overall MOA decision-making and
implementation process. We focused our questions on the future use of the MOA with NASA
on the GOES program, because the last POES is expected to be completed by fiscal year
2008.

To accomplish our work, we interviewed POES and GOES program managers, the POES
acquisition manager, the Director and staff from NESDIS’ Interagency and International Affairs
office, staff from the NESDIS Planning and Budget Office and Management Operations and
Analysis Office, the Director and staff from NOAA’s Acquisition and Grants Office, NOAA’s
and the Department’s Office of General Counsel, and staff from the Department’s Acquisition
and Management Office. We reviewed appropriate legislation, including the Economy Act of
1932 as amended, the corresponding Code of Federal Regulations (CFR), the Department’s
and NESDIS’ interagency agreement guidance, and the current and prior MOAs used to
support the POES and GOES programs. We also evaluated NESDIS management controls
for Economy Act agreements to assess whether they were sufficient to ensure these MOAs
received the appropriate review and approval.

We did not assess the reliability of computer-generated data because such data were not
material to our audit objectives. We conducted our fieldwork from September 2004 to January
2005 at NOAA offices in Silver Spring and Suitland, Maryland. We performed this audit in
accordance with Government Audit Standards issued by the Comptroller General of the
United States, and under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                              5

U.S. Department of Commerce                                  Final Report No. BSD-16927-0001
Office of Inspector General                                                           March 2005

                        FINDINGS AND RECOMMENDATIONS

Our review found that NESDIS has established new processes and procedures for
appropriately preparing, reviewing, and clearing interagency agreements that address our past
concerns. While this new guidance was not available in 1998 when the current MOAs were
written, we found that NESDIS managers did not completely follow existing guidance when
creating the two current satellite MOAs. As a result, the MOAs cite conflicting legal authority,
do not completely follow federal acquisition regulations, and do not include other information
required at that time. We also compared the MOAs against the new guidance and found that
they do not include required information. For example, the agreements do not detail specific
offices that are responsible for NOAA activities or contain specific products, schedules,
delivery requirements, and the amount of payment.

I. 	NEW PROCESSES AND PROCEDURES EXIST FOR APPROPRIATELY
    PREPARING, REVIEWING, AND CLEARING INTERAGENCY
    AGREEMENTS.

Past OIG reviews, conducted at about the same time that NOAA was updating the Basic
Agreement and GOES and POES MOAs, identified concerns in the preparation, review, and
clearance of interagency agreements at a number of operating units, including NOAA.1 To
address these concerns, the Department issued the Interim Interagency and Other Special
Agreements Handbook (April 2004) to provide guidance for the use, management, and
oversight of interagency agreements. The handbook assigns responsibility and establishes
general policies and procedures for the preparation, review, clearance, approval, monitoring,
and closing of interagency agreements. Although the handbook is not yet in final form, the
guidelines have been endorsed by senior Department officials and represent best practices for
managing the interagency agreement process.

In response to these same OIG reviews, the Deputy Under Secretary for Oceans and
Atmosphere directed all NOAA line offices to draft MOA guidance. NESDIS issued its own
manual for interagency agreements, Review and Clearance Procedures for Agreements, on
October 31, 2002. The NESDIS’ International and Interagency Affairs Office prepared the
NESDIS Review and Clearance Procedures for Agreements manual based on its experience
establishing memoranda of agreements with foreign countries and other agencies interested in
participating in NOAA satellite, data, and information programs. According to an official from


1
 National Oceanic and Atmospheric Administration OAR’s Interagency and Other Special Agreements
Require Additional Improvements for Compliance, IPE-10310, May 1998; National Oceanic and
Atmospheric Administration NMFS’s Interagency and Other Special Agreements Require Additional
Improvements, IPE-10755, September 1998; Office of the Secretary Interagency and Other Special
Agreements Require Better Management and Oversight, IPE-10418, September 1998; Improvements Are
Needed in Commerce Agencies’ Implementation and Oversight of Interagency and Other Special
Agreements, IPE-9460, September 2000.



                                                6

U.S. Department of Commerce                                          Final Report No. BSD-16927-0001
Office of Inspector General                                                                   March 2005

the International and Interagency Affairs Office, the manual was reviewed and granted interim
clearance by the Department’s OGC. The manager of each NESDIS office is responsible for
ensuring that each agreement entered into by that office complies with the provisions of the
manual. For the satellite development programs, that responsible office is the Office of Systems
Development. This office provides the primary contact with NASA and arranges for the
development of major system elements (spacecraft, sensors, communications, ground receipt,
and data/product processing and delivery); and the integration, installation, and acceptance of
the NOAA civil operational remote-sensing satellite systems.

All agreements entered into by a NESDIS office, such as the Office of Systems Development,
are supposed to be coordinated with the NESDIS International and Interagency Affairs Office.
NOAA’s OGC also is required to review all agreements and NOAA’s Office of Finance is
required to review all reimbursable agreements.


                         MEMORANDUM OF UNDERSTANDING


                                        PURSUANT TO 

                                      THE ECONOMY ACT


                                         THROUGH WHICH


                                [name of your operating unit]
                            U.S. DEPARTMENT OF COMMERCE

                                        IS PURCHASING
                                 [state what you are purchasing]

                                                 FROM

                                      [name of other agency]

                 [Note: This format is for use only when NOAA/NESDIS is paying another
                 Federal Agency or DOC Operating Unit for goods or services, i.e., when
                 NOAA/NESDIS is the “requesting agency.”]




                  First Page of NESDIS Template Used to Guide Completion of
                  Economy Act Agreements When NESDIS is the Requesting Agency


To further simplify guidance, staff from the Department’s Office of Acquisition Management
informed us that they are now working with all departmental agencies to create a single



                                                     7
U.S. Department of Commerce                                       Final Report No. BSD-16927-0001
Office of Inspector General                                                                March 2005

handbook that the agencies will be required to use to write agreements. Such a document
would help clarify and enhance the guidance we reviewed in the two manuals. For example, the
new handbook should clarify at what level the agreements should be reviewed by various
components, i.e., budget and finance, legal, and acquisition. Pending the consolidated guidance,
we found that the NESDIS manual, coupled with the requirements of the departmental
handbook and the specific authorizing legislation, provides sufficient guidance for the
preparation of Economy Act agreements.

II. 	NESDIS DID NOT COMPLETELY FOLLOW EXISTING GUIDANCE WHEN
     CREATING THE 1998 SATELLITE AGREEMENTS

The 1998 GOES and POES MOAs were written before the issuance of current Departmental
and NESDIS guidance, but clearly at a time when there was legal, regulatory, and even some
departmental and NOAA guidance to guide the creation and review of these agreements. We
found that while the Department’s OGC had reviewed the agreements, NESDIS did not
completely follow the OGC guidance, federal regulations, and other departmental and NOAA
guidance. As a result, the agreements (1) cite conflicting authorities, (2) were entered into
without the required justification for using NASA as the procurement source, and (3) did not
include required budget and management information.

A. Failure to Follow Guidance from the Department’s Office of General Counsel
   Resulted in Citation of Conflicting Legal Authority

An agency entering into an interagency agreement obligating government funds should properly
document the agreement, such as citing the legal authority for entering into the agreement.2
Citation to a proper legal authority is important because it provides the legal basis for the
agreement, and can have an impact on the treatment of funds, requirements and procedures for
assuring compliance, and approvals by authorized officials.

The 1964 and 1973 Basic Agreements were based primarily on NASA’s and NOAA’s
authorizing legislation and organizational guidance, and the 1962 Supplemental Appropriation
Act. The 1998 Basic Agreement included a more specific legal authority, the Department’s
Joint Project Authority, 15 U.S.C. § 1525, which authorizes two agencies to enter into an
agreement and work collaboratively toward a project that is of mutual interest, in which the cost
of the project is apportioned in an equitable manner. The 1998 POES and GOES agreements
also cited the joint project authority.

As required by guidance issued by the Department’s OGC, the agreements were submitted to
that office for review. Because only NOAA was funding the work discussed in the POES and

2
 31 U.S.C. § 1501(a)(1)(A); see also Title 7, “Fiscal Guidance,” Policy and Procedures Manual for Guidance
of Federal Agencies, General Accounting Office (May 18, 1993).




                                                    8

U.S. Department of Commerce                                   Final Report No. BSD-16927-0001
Office of Inspector General                                                            March 2005

GOES agreements, OGC approved the agreements based on the condition that they be issued
under the authority and provisions of the Economy Act of 1932, as amended, not the joint
project authority. When certain conditions are met, the Economy Act permits federal
government agencies to purchase goods or services from other federal government agencies or
other major organizational units within the same agency.

The final signed versions of each agreement we reviewed showed that NESDIS managers did
not remove the joint project authority citation. Instead, NESDIS added a statement that funds
will be transferred under the Economy Act. We were unable to determine how or why both
authorities were cited in the MOAs. We were told that the attorney in NOAA’s OGC who
should have reviewed the agreements after the changes were made had since retired and was
therefore unavailable to comment on the matter. At a minimum, we found no documentation to
suggest that NOAA OGC reviewed the MOAs after the Department’s OGC recommended
that the agreements should be executed under the provisions of the Economy Act. The NOAA
attorney who currently reviews NESDIS interagency agreements told us that he believes that the
citation of conflicting authorities would have been detected if an attorney had reviewed the
agreements. Each agreement should be corrected by removing the joint project authority
reference.

B. 	Failure to Follow Economy Act Regulations Allowed NESDIS to Enter Into The
    Agreements Without The Required Justification for Using NASA as The
    Procurement Source

The Federal Acquisition Regulation (FAR) prescribes the policies and procedures applicable to
interagency acquisitions under the Economy Act.4 When a government agency purchases a
good or service from another government agency pursuant to the Economy Act, the requesting
agency must prepare a Determination & Finding (D&F). The D&F must state that (1) the use
of an interagency acquisition is in the best interest of the government, and (2) supplies and
services cannot be obtained as conveniently or economically by contracting directly with a
private source.5 If the Economy Act order requires contract action by the servicing agency, as
the POES and GOES projects do, the D&F should include a statement, as described in the
regulation, that justifies why the servicing agency is needed to enter into the contract.6 A
contracting officer of the requesting agency with the authority to contract for the supplies and
services to be ordered, or another official designated by the agency head, must approve the
D&F.7



4
  48 Code of Federal Regulation (C.F.R.) Subpart 17.5

5
  48 C.F.R. § 17.503(a).

6
  48 C.F.R. § 17.503(b).

7
  48 C.F.R. § 17.503(c).

8
  48 C.F.R. § 17.503(a).

9
  48 C.F.R. § 17.503(c).




                                                         9

U.S. Department of Commerce                                  Final Report No. BSD-16927-0001
Office of Inspector General                                                           March 2005

While language citing the D&F criteria is included in the agreement, there is no documentary
evidence that the required analysis was done to ensure that the D&F criteria were met. We
also could not find any documentary evidence that an appropriate acquisition official justified or
reviewed the agreements pursuant to the Economy Act. Specifically, we sought to assess how
NESDIS determined that GOES and POES satellites could not be obtained as conveniently or
economically from a source other than NASA. At the start of our review, we questioned the
NESDIS managers about whether NESDIS had or was planning to evaluate options other than
using NASA to acquire satellites. At that time, we were told that no official reviews had or
were being undertaken. At our exit conference, NESDIS managers acknowledged that they
did not fully comprehend what was required to support the D&F requirements. As such, these
managers readily agreed that the federal acquisition regulations relating to the D&F were not
followed.

During the course of our review, NESDIS officials told us that they have continued to use
NASA to acquire satellites because NASA has unique technical capabilities to develop satellites
that NOAA does not have and would have to develop in-house. In addition, these managers
explained that because of the nature of NASA’s mission, NASA has access to technical experts
not readily available to NOAA. The GOES program manager, however, stated that for GOES
R and subsequent follow-on satellites, his team plans to evaluate all options for development of
the satellites including the possibility of contracting directly with a private source for the
acquisition. By working with the appropriate acquisition official to conduct an assessment of
alternatives, NESDIS will be able to formally address the pros and cons of working with
NASA, as NASA completes the ongoing POES and GOES projects, as well as meet the
Economy Act and D&F requirements.

C. 	Failure to Follow Past Departmental and NOAA Guidance Created Agreements
    that Lack Important Budget and Management Information

Departmental and NOAA guidance pertaining to interagency agreements in 1998 included
Office of Management and Budget Circular (OMB) A-25, the Department of Commerce
Accounting Principles and Standards Handbook, and the NOAA Budget Handbook (June
30, 1994), both of which required budget information to be included in interagency agreements
to ensure full cost recovery. The NOAA Budget Handbook also provided a model interagency
agreement, in which mandatory provisions containing specific information were to be included in
all interagency agreements. For example, management responsibilities of the respective
agencies were to be completely identified, and services (e.g., procurement, personnel services)
under the agreement were to be separately itemized. Specific budgeting and funding information
was required, including the total estimated dollar values of the services, and an advance
payment schedule if the total estimated cost would exceed $50,000 or the length of time to
complete the work would exceed 6 months. The model agreement also required periodic
reviews of the agreement.




                                                10

U.S. Department of Commerce                              Final Report No. BSD-16927-0001
Office of Inspector General                                                       March 2005

The POES and GOES agreements lacked much of the information required in the model
agreement. As we discuss more fully below, the new guidance provides direction to address
the problems we have identified.




                                            11

U.S. Department of Commerce                                  Final Report No. BSD-16927-0001
Office of Inspector General                                                           March 2005



III. THE TWO SATELLITE AGREEMENTS SHOULD BE IMPROVED BY
     APPLYING THE NEW GUIDANCE

An Economy Act Agreement is similar to a contract in that it involves the purchase of goods
and/or services by one federal agency from another. As such, these agreements should clearly
specify agency responsibilities and the terms and conditions of the purchase. We evaluated the
1998 POES and GOES agreements against the new guidance to identify areas where the
agreements should be updated. We found a number of areas where both the Department and
NESDIS guidance required information that was not included in the 1998 POES and GOES
agreements. The MOAs should be updated to address these requirements.

•   Contact Information

    Both the Department’s and NESDIS guidance require that MOAs identify all parties to the
    MOA. The MOA should include the name and address of each organization(s) as well as a
    contact person, contact person’s title, and telephone number. Changes to the contact
    person should be done through written notification. Our review of the POES and GOES
    MOAs found that they did not include contact person information.

•   Responsibilities of Each Party to the MOA

    The Department’s guidance requires that division of responsibilities and commitments should
    be defined as precisely as possible. Our review of the MOAs found that additional steps
    could be taken to more precisely identify parties responsible for each activity. For example,
    the MOAs describe NOAA, NASA, and joint responsibilities, but they do not identify
    which office at NOAA and NESDIS are responsible for specific activities or which policies
    and procedures will be followed. This type of information assigns accountability and
    ensures that appropriate management controls are in place to accomplish the work. When
    we asked NESDIS officials to identify which offices accomplished the tasks, the officials
    readily did so. As such, this information should be fairly easy to include in the MOAs.

    Another area where responsibilities could be better defined is in areas of quality assurance.
    For example, the MOAs state that “NOAA may be present during [NASA] contract
    negotiations, shall participate in contract award fee determination, and shall participate in
    project configuration management” and that “NASA shall negotiate with and be the single
    official interface with the spacecraft, instruments, and launch services.” However, the
    MOAs do not detail inspection and quality assurance procedures, including who is
    responsible for them. When we asked how NESDIS officials make sure that NASA and
    the contractor are accomplishing the tasks, NESDIS officials provided a detailed listing of
    meetings and events that are used to monitor project execution by NASA and the




                                               12

U.S. Department of Commerce                                  Final Report No. BSD-16927-0001
Office of Inspector General                                                           March 2005

    contractors. A summary of these activities and who will be accomplishing them could be
    easily added to the MOAs.

•   Details of the Procurement

    Both the Department and NESDIS guidance address details about the procurement
    strategy. The Department’s handbook states, “Where applicable, the agreement should
    include goals, performance measures, products, and a schedule of strategic milestones.”
    The NESDIS manual requires the acquiring party to identify the item being purchased with
    specificity, the delivery requirements, and the amount the party will receive as payment. The
    POES and GOES agreements do not contain specific products, schedules, delivery
    requirements, and the amount of payment.

    NESDIS officials explained that much of this information is available but is done through a
    separate bi-annual process referred to in the MOA. We believe that an estimate of costs,
    schedule, milestones, the number of satellites, and other specific items being procured
    should be included in the MOA. By providing details about the satellite acquisition,
    managers can ensure that all parties and stakeholders to the agreement are aware of the key
    provisions regarding the acquisition. In addition, information about the cost of the program
    also triggers the level of review. Since these acquisitions cost hundreds of millions of
    dollars, they warrant and should receive the highest levels of review. As cost and schedule
    information changes, this information can be updated as required and amendments made to
    the MOA.

•   Required Funding Information

    Both the Department and NESDIS require information regarding the transfer of funds. The
    Department’s handbook states, “If funds are to be obligated under the agreement, the
    financial arrangements for all parties to the agreement must be clearly stipulated.” The
    model Economy Act agreement in the NESDIS manual requires an explanation of how
    NOAA/NESDIS will pay for the goods/services i.e., whether payments will be monthly,
    quarterly, or in advance if required by the servicing agency. It also includes language to help
    the drafter identify the appropriation out of which the specific NESDIS office will pay for
    the services, the date on which the funds will expire, and a sentence that states how that the
    funds will be deobligated to the extent that the servicing agency has not incurred obligations
    before the end of the period of availability of that appropriation. Again, this information was
    not included in the POES and GOES MOAs. By including it in the updated MOAs,
    NESDIS could more clearly define the terms and conditions of its agreements with NASA.




                                                13

U.S. Department of Commerce                                   Final Report No. BSD-16927-0001
Office of Inspector General                                                            March 2005

•	 An Official Agreement File

    The Department’s handbook and NESDIS’ manual both discuss requirements for record
    keeping. The Department requires that the operating unit responsible for managing
    interagency agreements maintain an official file for each agreement. The file should contain a
    copy of the agreement and all modifications and amendments, a copy of all appropriate
    correspondence, D&Fs, clearance documents, proposed budget or other basis for
    estimating funds, financial information and other information regarding location and retention
    of records. According to the NESDIS manual, the office responsible for managing the
    agreement shall maintain an official file for each agreement. The Official Agreement File
    shall contain many of the similar items listed in the Department’ handbook. Officials
    responsible for maintaining such files did not have ones for the POES and GOES
    agreements. NOAA should ensure that Official Agreement Files are created and
    maintained for the new agreements.

•	 Periodic Review Procedures

    As discussed in the prior section, agreements should be periodically reviewed. The
    Department’s handbook includes suggested language for agreements that states, “If the
    agreement is for an extended or indefinite period of time it should contain a provision for
    review, at least every three years, to determine continuing need and whether the agreement
    should be revised, renewed, or canceled.” The model Economy Act agreement in the
    NESDIS manual directs users to include language that states when an agreement becomes
    effective and the date it terminates. If an agreement is expected to last longer than 3 years,
    the manual suggests including provisions for reviewing the agreement every 3 years
    consistent with the Department’s handbook. The POES and GOES MOAs are for
    indefinite periods of time and do not include specific provisions for review. When updating
    the agreements, review provisions should be added.

•	 Suggested Areas for Terms and Conditions

    NESDIS should also consider these other areas of improvement as suggested by the
    Department’s handbook:

    1.	 Delegations of authority and channels and protocols for working relationships
        Some of the information regarding protocols for working relationships is contained in the
        MOA. However, in regards to resolving programmatic issues that have not been
        resolved at the program level the information appears to be outdated. We were told
        that the specific group designated to resolve such issues, the NOAA-NASA Planning
        Coordination Council, no longer exists.




                                                14

U.S. Department of Commerce                                    Final Report No. BSD-16927-0001
Office of Inspector General                                                             March 2005


    2. Liability Issues, if any

        The Department’s handbook states that liability may apply to projects under the
        interagency agreement where there is any potential for damage or injury to persons or
        property. However, the handbook provides little detail on how liability or risk of loss
        issues are to be addressed in interagency agreements. Under the terms and conditions
        of the current POES and GOES MOAs, many parties are involved in the acquisition –
        NASA provides acquisition management, several contractors are involved in developing
        the instruments and spacecraft, and other parties are involved in the launch. While the
        MOAs state that NASA is responsible for the satellite until it is successfully launched
        and in an operational orbit, the MOAs are silent about how issues related to satellite
        damage or loss will be handled.

        Given the significant cost of the satellites, the numerous parties involved in the
        acquisition, and the potential for loss or damage to the satellites, we believe that, at a
        minimum, the POES and GOES program managers should take a cue from the
        Department’s handbook and address how potential loss or damage will be handled at
        each stage of the acquisition process. For example, a risk of loss provision could be
        considered for inclusion in future agreements, which provides that the servicing agency
        will ensure that the contractor will bear the risk of loss, theft, destruction, or damage to
        the goods or services being purchased by the requesting agency.

IV. RECOMMENDATIONS

The Deputy Under Secretary of Commerce for Oceans and Atmosphere should take the
necessary actions to ensure that the Assistant Administrator for Satellite and Information
Services:

    (1) cites the proper legal authority in the POES and GOES MOAs, as well as future
        agreements;
    (2) complies with the requirements of the Economy Act, including federal acquisition
        regulations that apply to Economy Act transactions; and
    (3) updates the POES and GOES agreements to follow the new guidance provided in the
        Department’s Interim Interagency and Other Special Agreements Handbook (May
        2004) and NESDIS’ Review and Clearance Procedures for Agreements (October
        31, 2002), and takes the necessary steps to ensure that future agreements comply with
        this guidance.




                                                 15

U.S. Department of Commerce                              Final Report No. BSD-16927-0001
Office of Inspector General                                                       March 2005


V. NOAA RESPONSE AND OIG RESPONSE

We provided NOAA a draft of our audit report for its review and comment. NOAA’s
response is provided in Attachment I.

In response to our draft report, the Chief Administrative Officer of NOAA agreed with our
recommendations. In addition, he noted that NOAA will ensure that current agreements are
amended to comply with past and present regulations and that future agreements comply with
current applicable laws, regulations, and policies.

We appreciate NOAA’s prompt response to our draft report and its continued efforts to
improve its management and oversight of satellite memorandums of agreement.




                                             16

